                                                             IG-00-037




REVIEW
                           REVIEW OF RESEARCH FLIGHT OPERATIONS AT THE
REPORT                               GLENN RESEARCH CENTER

                                           July 17, 2000




                              OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183, (800)
535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.


_____________________________________________________________________________


Acronyms

AOS                 Aviation Operations System
FAA                 Federal Aviation Administration
IAOP                Intercenter Aircraft Operations Panel
NPG                 NASA Procedures and Guidelines
W                                                                                   July 17, 2000


TO:             A/Administrator

FROM:           W/Inspector General

SUBJECT:        INFORMATION: Review of Research Flight Operations at the Glenn Research Center
                Report Number IG-00-037


The NASA Office of Inspector General has completed a review of the decision to terminate Research
Flight Operations at the Glenn Research Center (Glenn). We performed the review in response to
Center employee and congressional concerns over the termination of research flights based at the Glenn.
We found that NASA terminated research flight operations at Glenn prematurely without adequately
evaluating all of the alternatives, performing cost-benefit analyses, or developing a long-term plan for
conducting the icing research. As a result, the cost of conducting the research could increase if the
planes are transferred to another location, and there will be a loss of productivity for the researchers
involved in Glenn’s research flight activities.

Background


Since about 1970, Glenn has provided aircraft operations for various flight research aircraft. However,
the Agency's Zero Based Review1 completed May 17, 1995, recommended the consolidation of all
NASA research aircraft. Glenn had 10 aircraft at the time and took appropriate measures to either
transfer most of them to other NASA Centers or surplus them. Glenn currently has two remaining
aircraft, a DeHavilland Twin Otter and a Lear 25. The Twin Otter serves as NASA’s icing research
aircraft, which was modified to meet the requirements of a flying icing laboratory and experimental
aircraft. The Lear 25 has been modified to serve many functions for NASA and other Government
agencies. During our review, NASA used the aircraft primarily for solar cell calibration.2




1
  NASA performed the Zero Based Review of each NASA program to determine ways to restructure programs in
order to accomplish major scientific objectives for less money.
2
  NASA uses the solar cells to provide power to satellites.
                                                                                                          2
Recommendations

We recommended that the Associate Administrator for Aerospace Technology (1) develop a long-term
plan for the icing research program that provides for safe and effective research performance, (2)
perform a safety and programmatic evaluation including a cost-benefit analysis of alternatives for
performing the flight research program, (3) suspend aircraft transfer plans until a cost-benefit analysis of
the alternatives has been performed, and (4) consider resumption of Glenn research flight operations
after a follow-on assessment is performed.

Management’s Response


Management concurred with the findings and recommendations. The Associate Administrator for
Aerospace Technology is revising the icing research project plan and evaluating alternatives, including
conducting a cost-benefit analysis to appropriately assess the resources needed to meet the project
goals. In addition, the Associate Administrator has agreed that there will be no transfer of aircraft from
the Center prior to completion of the project plan and a cost-benefit analysis. The Center will also
continue to conduct flight operations to maintain the minimum airworthiness of the aircraft and the flying
proficiency for its pilots.

Details on the status of the report recommendations follow the finding discussion.




[original signed by]
Roberta L. Gross

Enclosure
 Final Report on Review of Research Flight Operations at the Glenn Research Center
             FINAL REPORT
REVIEW OF RESEARCH FLIGHT OPERATIONS
    AT THE GLENN RESEARCH CENTER
W                                                                         July 17, 2000


TO:              R/Associate Administrator for Aerospace Technology
                 0100/Director, Glenn Research Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Review of Research Flight Operations at Glenn Research
                 Operations
                 Assignment Number A0002700
                 Report Number IG-00-037


The subject final report is provided for your information and use. Please refer to the Results in
Brief for the overall review results. Our evaluation of your response is incorporated into the
body of the report. The recommendations will remain open for reporting purposes until
corrective action is completed. Please notify us of the actions taken, including the extent of
testing performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Ms. Karen VanSant, Program
Director, Aerospace Technology Audits, at (256)-544-1149, or Mr. William Falter, Auditor-
in-Charge, at (301)-286-3356. We appreciate the courtesies extended to the audit staff. See
Appendix C for the report distribution.

[Original signed by]


Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
                            NASA Office of Inspector General
IG-00-037                                                                               July 17, 2000
 A0002700

                    Review of Research Flight Operations at the
                              Glenn Research Center


Introduction

The NASA Office of Inspector General (OIG) completed a review of Research Flight
Operations at the Glenn Research Center (Glenn). The former Associate Administrator for
Aerospace Technology directed the Center to discontinue research flight operations 3 as of
December 31, 1999. Due to programmatic requirements, one of the two research aircraft was
granted an extension of operations until March 31, 2000. We initiated the review due to Center
employee and congressional concerns about the termination of research flights at Glenn. The
overall objective of our review was to evaluate NASA's decision to discontinue research flight
operations at Glenn. See Appendix A for the specific review objectives.


Results in Brief

NASA prematurely terminated research flight operations at Glenn without adequately evaluating
all the alternatives, performing cost-benefit analyses, or developing a long-term plan for
conducting the icing research. NASA justified the decision to stop research flight operations at
Glenn by citing perceived safety concerns related to mechanic proficiency, risky flying
conditions, and pilot proficiency. However, subsequent to this decision, NASA did not perform
an adequate analysis to validate the perceived safety concerns. In addition, NASA
Headquarters and Glenn officials did not clearly communicate regarding the decision to stop the
research flights and the long-term direction for the icing research program. As a result, the cost
of the research programs will increase, and there will be a loss of productivity for the
researchers involved in Glenn's research flight activities.




3
 Glenn performs research on how ice forms on the wings and tail of an aircraft in order to provide training to
pilots on how to handle an icing situation.
Background

Since about 1970, Glenn has provided aircraft operations for various flight research aircraft.
However, the Agency's Zero Based Review4 completed May 17, 1995, recommended the
consolidation of all NASA research aircraft. Glenn had 10 aircraft at the time and took
appropriate measures to transfer most of them to other NASA Centers or to surplus them.
Glenn has two remaining aircraft, a DeHavilland Twin Otter and a Lear 25.

Twin Otter and the Icing Research Program. The Twin Otter serves as NASA's icing
research aircraft. It has been modified to meet the requirements as a flying icing laboratory and
experimental aircraft to meet the long-term validation needs of Glenn's Icing Research Tunnel
and icing computational tools. The aircraft's instruments measure icing cloud characteristics;
document resultant ice accretions; and determine the performance, stability, and control
degradation due to ice contamination. In-flight icing research activities require access to a
geographical area with a high probability of atmospheric icing potential, such as Cleveland. The
airline industry has used two NASA-produced videotapes on airplane icing to train pilots.

The icing research program at Glenn consists of simulations in the Icing Research Tunnel (the
largest refrigerated icing wind tunnel in the world), computational models, and research flights.
The research flights serve to validate the results obtained in the tunnel and the models.
Accordingly, the flights are an important part of the research program. The need for icing
research was emphasized in a November 30, 1998, National Transportation Safety Board
report,5 which states:

        … it is not clear what effect residual ice/ice accretions on unprotected nonleading edge
        airframe surfaces have on flight handling characteristics. Because not enough is known
        or understood about icing in general, and especially about the effects of intercycle and
        residual ice, the Safety Board believes that NASA should (with the FAA [Federal
        Aviation Administration] and other interested aviation organizations) conduct additional
        research to identify realistic ice accumulations, to include intercycle and residual ice
        accumulations and ice accumulations on unprotected surfaces aft of the deicing boots,
        and to determine the effects and criticality of such ice accumulations; further, the
        information developed through such research should be incorporated into aircraft
        certification requirements and pilot training programs at all levels.


Lear 25 and the Solar Cell Calibration Program. The Lear 25 has been based at Glenn
since 1980 and has been modified extensively to serve many functions for NASA and other
Government agencies. At the time of our review, the primary use of the aircraft was




4
  NASA performed the Zero Based Review of each NASA program to determine ways to restructure
programs in order to accomplish major scientific objectives for less money.
5
  The report subject is, "Comair accident, Flight 3272 on January 9, 1997."

                                                   2
for solar cell calibration.6 The solar cell calibration program will typically fly from 20 to 40
flights from late October through late March when the sun angle and atmospheric conditions are
suitable.

The International Space Station will use solar cells. NASA and satellite owners need to know,
within a 1-percent tolerance, how well the solar cells will work in space. To make this
determination in the laboratory, the researchers need to have a “known” cell7 as a primary
reference. Once the researchers have this standard, they can use a simulator to compare other
cells of the same composition. Cells are made of various compositions, so many reference cells
are needed as primary references. Glenn officials stated there is a greater need now for the
flights than in the past because of the more complex cells being developed. NASA, other
Government agencies, and industry use the Glenn research flight aircraft, which has a reputation
for providing accurate measurements.


Research Flight Operations

Finding. NASA prematurely terminated research flight operations at Glenn without adequately
evaluating all alternatives, performing cost-benefit analyses, or developing a long-term plan for
conducting the icing research. NASA justified the decision to stop research flight operations by
citing safety concerns. However, the Agency did not perform an adequate analysis to show that
the concerns were valid or that the actions taken were in the best interest of the programs. In
addition, as a result of the Agency's and Glenn's lack of clear communication on the decision to
stop the research flights at Glenn, the research community, members of Congress, and the
public were concerned about the stoppage and the long-term direction for the icing research
program. Stopping research flight operations before adequately evaluating the impacts on the
research and evaluating alternatives may result in increased costs for research and a decrease in
research productivity.

Perceived Safety Considerations

The Agency based its decision to stop research flight operations at Glenn on perceived safety
concerns related to mechanic proficiency, risky flying conditions, and pilot proficiency.

•   NASA was concerned about mechanic proficiency because of the direction to transfer
    aircraft (Glenn reduced the number of its aircraft from 10 to 38) and because the remaining
6
  NASA uses solar cells in space to provide energy for satellites and space station. The solar cell calibration
is performed in the Earth's stratosphere and requires an aircraft that is capable of achieving an altitude high
enough to fly approximately 7 to 10 miles above the earth's surface. This cannot be done adequately in a
ground laboratory.
7
  A "known cell" is a calibrated cell that is used to check uncalibrated cells.
8
  At the time of the Intercenter Aircraft Operations Panel's review, in addition to the Twin Otter and the Lear
25, Glenn had a third aircraft, an OV-10. However, Glenn did not have any further use for that aircraft in the
research program, and the aircraft was subsequently excessed.

                                                       3
       research flights were seasonal which together could result in decreased proficiency in
       maintaining aircraft operability. Because of these concerns, flight operations were stopped.
       In response to this action, the Glenn Research Center requested the Intercenter Aircraft
       Operations Panel (IAOP) to conduct a review of Glenn's flight operations in February 1999
       which raised some safety questions about management, operations, and maintenance.
       However, Glenn addressed the IAOP's concerns following its review by implementing
       IAOP recommendations. The IAOP currently has no safety concerns about the operations
       at Glenn. Upon satisfying the IAOP's concerns, Glenn resumed flight operations.

•      The Office of Aerospace Technology decided NASA pilots should not be flying in the risky
       conditions because there is little or no control over where icing could occur on the aircraft.
       Normally, pilots would try to avoid aircraft icing because it affects the handling of the
       aircraft and is a major cause of aircraft accidents. However, for icing research flights, the
       pilots fly directly into the icing conditions. Glenn has been performing icing research using
       aircraft for about 18 years without incident. The pilots are well trained in this type of flying,
       and they take precautions to avoid problems. Normally, during an icing research flight,
       there are two pilots and two researchers in the plane. Under the alternative of leasing the
       Twin Otter to Canada, which NASA is currently considering, Agency researchers will still
       fly on board during many of the research flights. In addition, NASA pilots will be
       accompanying some Canadian pilots on icing research flights for a certain period after the
       transfer. Since NASA personnel will still be flying on the aircraft during the research flights,
       we believe leasing the Twin Otter to Canada would not alleviate the safety concerns related
       to flying in risky conditions.

•      The Agency was concerned about pilot proficiency. The letter9 NASA issued in response
       to congressional concerns about transferring aircraft states, " maintaining a safe flight
       research operation at GRC [Glenn] requires an investment in maintaining crew proficiency
       achieved by flying the aircraft on missions over and above that justified by research
       requirements." NASA Procedures and Guidelines (NPG) 7900.3A, "Aircraft Operations
       Management," dated April 8, 1999, states that NASA pilots must have at least 100 hours
       of flight time each year to maintain their proficiency as pilots. Our review of Glenn flight
       records for calendar year 1999 showed that both the pilots flying research flights at Glenn
       had more than 100 hours of research flying time each. Therefore, the pilots had met the
       NPG requirement to maintain proficiency.

Communication on the Decision to Stop Flights

Based on findings and recommendations of the IAOP review team, the Office of Aerospace
Technology restored flight operations on March 5, 1999. The Office of Aerospace Technology
also requested that Glenn thoroughly review the findings and recommendations of the IAOP
team and report on the actions related to proposed minor modifications. The March 5 letter

9
    The Agency issued the February 11, 2000, letter to Senator DeWine.

                                                      4
that restored flight operations also states "this direction to resume operations is valid through
calendar year 1999." The last paragraph of the letter states, "you are directed to reinstate flight
operations at Glenn and to continue the transition to flight support." The letter did not instruct
Glenn to prepare a plan for performing the research if flight operations were discontinued or the
aircraft were based elsewhere. Therefore, Glenn officials believed the letter did not require
them to stop flight operations at the end of calendar year 1999 and did not begin planning for
alternatives for the research. Conversely, the Office of Aerospace Technology officials believed
the letter was clear that flight operations at Glenn would stop at the end of 1999. Although
communication between Glenn and the Office of Aerospace Technology on this issue continued,
it did not result in either closure on the perceived safety issues or the future of the icing research
program.

Long-term Program Plan

The former Associate Administrator for Aerospace Technology stated the icing program did not
have a long-term plan for conducting research. According to Glenn, icing research is a project
within the Aviation Operations (AOS) Systems Research and Technology Base Program
element. The AOS program does have a long-term plan, which includes technical objectives,
approach, milestones, and schedules, for icing research. The icing research project has
prepared a new project plan that is currently under review. The former Associate Administrator
for Aerospace Technology also indicated that enough research had been conducted using the
Twin Otter aircraft and that Glenn should be moving towards other types of aircraft. Glenn
officials stated that they would like to use another aircraft, such as the class of regional jets used
by some commuter airlines. However, the program does not have the necessary resources for
procuring another aircraft. Although Glenn officials have prepared a draft long-term plan for
conducting icing research, the draft plan does not include plans for access to another class of
aircraft because of funding constraints. Program officials told us that modification costs and
operating costs of another class of aircraft would also have to be considered.

Although the funding is not currently available, Glenn, in preparing the long-term plan, should
include options for procuring another class of aircraft so icing research can continue without
interruption. Glenn also should consider making an arrangement with industry that would give
Glenn access to another class of aircraft.

Alternatives for Conducting the Flight Research

As of March 2000, NASA had not evaluated alternatives for conducting the icing research and
solar cell calibration and had not performed a cost-benefit analysis to determine whether
terminating Glenn flight research operations was in the best interest of the research program.
Subsequent to the decision, Glenn management began to consider various alternatives.
However, management was not considering keeping the planes at the Center because the
decision to stop research flight operations at Glenn had already been made. At the time of our
review, the only cost analysis that NASA had performed was the Zero Based Review in 1995.

                                                  5
That review was the subject of a prior Office of Inspector General audit (see Appendix A for
details), which found that the "assumptions and cost savings projections were optimistic, and its
associated cost estimates did not adequately reflect actual cost history."

Glenn is pursuing one alternative regarding use of the Twin Otter, which is to lease the aircraft to
Canada and to work cooperatively with Canadian researchers in conducting icing research.
Under this arrangement, Canada would operate the aircraft but it would be available for use by
NASA and Canadian researchers. The Canadians also have Twin Otter aircraft and, therefore,
are familiar with its operations; however, the Canadians have not flown research flights similar to
those that NASA has flown. NASA has flown performance flight and clear air tests with
artificial ice shapes that the Canadians have never flown. The details of the lease, cost,
schedule, and the extent of research collaboration with the Canadians have yet to be finalized.
Further, it is unclear how such a transfer would enhance safety compared to the present
arrangement.

Glenn is considering two options for the Lear 25. One option is to transfer the aircraft to
Langley and bring it to Glenn for a few months a year for solar cell calibration flights. Another
option is to use an ER-2 aircraft (based at Dryden Flight Research Center), which can fly at
altitudes higher than the Lear 25 can fly and, therefore, could be used at various times of the
year or at different locations. However, Glenn officials stated that there may be control
limitations10 on the ER-2 aircraft, which could eliminate it from further consideration. The
options still need exploring before a final decision is made.

Impacts on Research Programs

Glenn will remain NASA's lead center for icing research and aerospace power research and
technology. The research programs will continue even though the applicable aircraft are not
based at Glenn. There will be no reduction in staffing because of the decision to cease flight
operations. However, there will be some changes in the ways the research is conducted and
some related impacts on the research programs. Two of these impacts, the cost of the research
and productivity of the researchers, are discussed below.

Cost of Research Could Increase. The Twin Otter and the Lear are the only two research
aircraft at Glenn. Staging these two aircraft at another location that is yet to be determined will
increase the cost of doing research. Travel costs would be incurred for the Glenn researchers
to travel to the locations where the aircraft are based. The additional travel costs are currently
estimated at a total of $45,000. In addition, to maximize efficiency when traveling to Canada,
the researchers will need to build a hot bench11 at Glenn estimated to cost $143,000. Also, the
Twin Otter may need to be modified to meet Canada Transport (Canada's Federal Aviation
10
   During the calibration process, the ER-2 aircraft would need to be on autopilot because of the required
altitude. Glenn officials are not sure whether the ER-2 would then have the control needed for accurate solar
cell calibration.
11
   A hot bench emulates the aircraft, allowing instruments to be calibrated in advance.

                                                     6
Administration) specifications which could add several thousand dollars for labor and
modification kits, depending on the extent of the modifications. Current estimates are $43,000
for labor and $66,000 for modification kits.

Use of the Lear will also incur costs for flying the aircraft from Langley Research Center several
times a year to conduct the solar cell research at Glenn. The increase in costs could result in a
decrease in research because the budgets will be consumed faster. If the Dryden ER-2 aircraft
is used, travel costs would still increase because the Glenn researchers with the responsibility for
solar cell calibration will have to fly to Dryden several times a year.

Researcher Productivity Could Decrease. Because flights are controlled by atmospheric
conditions, if the conditions are not right for the scheduled type of research, the aircraft do not
fly. The conditions are generally determined the day of the planned flight. Currently, if a
planned flight does not take place because the atmospheric conditions are not right for the
research, the researchers are able to perform other work at Glenn. However, if the planes are
transferred elsewhere, the researchers may not have alternative work they can do away from
their laboratories. Consequently, researcher productivity could decrease if the aircraft are not
operated at Glenn.

Glenn Hangar Will Remain Open

Under the current plan, the hangar at Glenn will remain open and will transition from an aircraft
operation to a support operation. 12 Glenn expects that the hangar and aircraft support
personnel will service approximately 75 to 100 transient aircraft annually. There will be no loss
of staffing because personnel will be reassigned to other positions at Glenn and will support the
transient aircraft as needed. Therefore, there will not be a considerable cost savings from
transferring the Twin Otter and Lear 25 to other locations. If flight operations are stopped,
Glenn should perform a cost-benefit analysis to assess the continuing need for the hangar.

Conclusion

NASA's plan to relocate the current research aircraft is not adequately supported by an
evaluation of all alternatives, including cost-benefit analyses and program impact analyses to
identify the best alternative to support the research mission. Safety is a consideration, and the
research flights, particularly for icing research are inherently risky. However, the overall goal of
the icing research program is to improve aviation safety.

NASA should evaluate the alternatives and identify the most efficient and effective method to
meet the program needs. Further, the Agency should develop a long-term plan for the icing
program and decide the best approach for achieving the goals set forth in the plan.

12
  As a support operation, Glenn would perform mostly administrative work, park transient airplanes, and
refuel transient airplanes. Glenn personnel would not perform major maintenance work on aircraft.

                                                    7
Recommendations, Management’s Response, and Evaluation of
Response

The Associate Administrator for Aerospace Technology should:

   1. Develop a long-term plan for the icing research program that provides for
      both safe and effective research performance.

Management’s Response. Concur. Icing research is a project of the Aerospace
Technology Research and Technology Base Aviation Operations Systems (AOS) program.
The AOS program has a long-term plan (goals, objectives, milestones and resources) with icing
research based on an icing workshop in 1998. The icing research project is revising the project
plan. The AOS subcommittee of the Aerospace Technology Advisory Committee will review
the draft plan, and recommendations resulting from this review will be incorporated in the final
project plan. The final report plan is expected to be approved in November 2000 depending
on final congressional authorization and appropriation.

The complete text of management’s response is in Appendix B. Management also provided
general comments on the report, which are addressed in Appendix C.

Evaluation of Management’s Response. The actions taken and planned by management
are responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open until agreed-to corrective actions are completed.

   2. Perform a safety and programmatic evaluation including a cost-benefit
      analysis of alternatives for performing the flight research program. The
      analysis should consider the cost to keep the research aircraft at Glenn and
      evaluate the cost of maintaining the Glenn hangar to support transient aircraft.

Management’s Response. Concur. Management agreed to conduct a cost-benefit analysis
to appropriately assess the resources, (cost, workforce, and vehicles) needed to meet the
project goals. The analysis will include the expected costs to maintain the flight research
capability at Glenn or elsewhere. Management expects to complete the cost-benefit analysis
before the end of the calendar year. Management also responded that cost would not be the
only factor in its decisions, particularly in regard to safety (see
Appendix B).

Evaluation of Management’s Response. We realize that cost alone is not the only
determining factor for a decision regarding flight research, and we revised the recommendation
in the final report to include a safety and programmatic evaluation. The actions taken and
planned by management are responsive to the revised recommendation. The recommendation



                                               9
is resolved, but will remain undispositioned and open until agreed-to corrective actions are
completed.




                                               10
   3. Suspend aircraft transfer plans until a cost-benefit analysis of the alternatives
      has been performed and an adequate long-term plan for conducting the research
      has been prepared.

Management’s Response. Concur. There will be no transfer of aircraft from the Center
prior to completion of the cost-benefit analysis and preparation of a long-term research plan
(see Appendix B).

Evaluation of Management’s Response. The actions taken and planned by management
are responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open until agreed-to corrective actions are completed.

   4. Consider resumption of Glenn research flight operations after a follow-on
      assessment is performed of corrective action for previously identified
      deficiencies.

Management’s Response. Concur. Glenn will continue to conduct flight operations to
maintain the minimum aircraft airworthiness and flying proficiency for its pilots. Thus the pilots
are prepared to resume flight research operations if needed, based on the cost- benefit analysis,
and needs identified in the project plan (see Appendix B).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                               11
               Appendix A. Objectives, Scope, and Methodology

Objectives

 The overall objective was to evaluate NASA's decision to discontinue research flight
operations at the Glenn Research Center. Specifically, we assessed whether NASA has: (1)
sufficiently justified the decision to terminate the research flight operations and (2) adequately
assessed alternatives to conducting research flight operations.

Scope and Methodology

We interviewed officials at NASA Headquarters and at Glenn who were involved in the
decision to cease the research flights based at Glenn. We interviewed personnel involved in
aircraft operations as well as in the icing research and solar cell calibration programs to identify
program goals and potential impacts if the aircraft are transferred to other locations.

We reviewed available documentation, dated March 1998 through February 2000, on the
program impacts and on the costs associated with the flight research program. We also
reviewed the response to a congressional request prepared by NASA management to explain
the basis of the decision.

Review Field Work

We performed the field work for this review from February through March 2000 at NASA
Headquarters and at the Glenn Research Center.

Prior Audit Coverage

NASA performed the Zero Based Review in response to dramatic decreases in the NASA
budget. The Zero Based Review recommended the consolidation of all NASA science
platform and research aircraft at Dryden in order to streamline infrastructure and improve
efficiency of its aeronautics programs. In August 1996, the NASA Office of Inspector General
issued a report on the Audit of Aircraft Consolidation at the Dryden Flight Research Center
(Report Number HA-96-007). The objective of the 1996 audit was to determine the
reasonableness of assumptions underlying NASA's consolidation plan and the accuracy of
subsequent cost assessments performed by the NASA’s Comptroller office. The audit found
that the proposed consolidation was neither cost-effective nor an efficient use of Agency
resources. Many of the assumptions and cost savings projections were optimistic, and the
associated cost estimates did not adequately reflect actual cost history. The audit also found
that NASA had not adequately evaluated the effects that aircraft consolidation would have on
research programs.



                                                 12
Appendix B. Management's Response




               13
Appendix B




             14
     Appendix B




15
Appendix B




                  See Appendix C
                  OIG Comment 1


                  See Appendix C
                  OIG Comment 2




                  See Appendix C
                  OIG Comment 3

                  See Appendix C
                  OIG Comment 4

                  See Appendix C
                  OIG Comment 5


                  See Appendix C
                  OIG Comment 6

                  See Appendix C
                  OIG Comment 7




             16
         Appendix C. OIG Comments on Management’s Response

Glenn management provided the following comments in its response to our draft report. Our
responses to the comments are also presented.

Management’s Comment. On page 1, paragraph 1, change the wording to “We initiated the
review due to Center employees’ and congressional concerns….

1. OIG Comments. We changed the wording to “We performed the review in response to
Center employee and congressional concerns….”

Management’s Comment. The incorrect order of events leads the reader to assume that the
IAOP encountered safety-related issues during their review. This, in fact, was not the case.
Therefore, the text on page 3, first bulleted paragraph, 2nd sentence, should be: "Because of
these concerns, flight operations were stopped. In response to this action, the Glenn Research
Center requested the Intercenter Aircraft Operations Panel (IAOP) to conduct a review of
Glenn’s flight operations in February 1999, which raised some questions about management,
operations and maintenance."

2. OIG Comments. We changed the report accordingly, and this issue is reflected on page 4
of the final report.

Management’s Comment. In reference to page 3, 2nd bulleted paragraph, the risk of flying
these airplanes is related to the research, regardless of where it is conducted.

3. OIG Comments. We changed the first sentence of the referenced paragraph to “The
Office of Aerospace Technology decided NASA pilots should not be flying in the risky
conditions because there is little or no control over where icing could occur on the aircraft.”
This issue is reflected on page 4 of the final report.

Management’s Comment. On page 4, 1st bulleted paragraph, Glenn will not fly any research
flights that are conducted by the Canadian research organization.

4. OIG Comments. We changed the report to “NASA pilots will be accompanying some
Canadian pilots on icing research flights for a certain period after the transfer.”

Management’s Comment. On page 5 in reference to the “Long-term Program Plan” for
icing research, icing research is a project within the Aviation Operations Systems (AOS) R&T
Base Program element. The AOS program does have a long-term plan, which includes
technical objectives, approach, milestones, and schedules for icing research. The icing research
project has prepared a new project plan that is currently under review.



                                                17
Appendix C.

5. OIG Comments. We changed the report to “According to Glenn, icing research is a
project within the Aviation Operations (AOS) Systems Research and Technology Base
Program element. The AOS program does have a long-term plan, which includes technical
objectives, approach, milestones, and schedules, for icing research." In another sentence in the
same paragraph, the report now states, “Although Glenn officials have prepared a draft long-
term plan for conducting icing research, the draft plan….”

Management’s Comment. For technical correctness, the last sentence on page 5 should read
NASA has flown performance flight and clear air tests with artificial ice shapes that….

6. OIG Comments. We changed the report accordingly, and this issue is reflected on page 6
of the final report.

Management’s Comment. For technical accuracy, the 2nd paragraph on page 6 should read
…to Glenn for a few months a year….

7. OIG Comments. We changed the report accordingly.




                                               18
                       Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
R/Associate Administrator for Aerospace Technology

NASA Centers

Director, Glenn Research Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs




                                           19
Appendix D

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Members

Honorable Mike DeWine, U.S. Senate
Honorable Pete Sessions, U.S. House of Representatives




                                             20
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title:       Review of Research Flight Operations at the Glenn Research Center

Report Number:                                         Report Date:



                  Circle the appropriate rating for the following statements            .

                                                      Strongl                               Strongl
                                                         y      Agree   Neutra   Disagre    y         N/A
                                                       Agree              l         e       Disagre
                                                                                               e
1.   The report was clear, readable, and logically       5       4        3         2          1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2          1      N/A
3.   We effectively communicated the audit               5       4        3         2          1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2          1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Karen VanSant, Program Director, Aerospace Technology Audits

William Falter, Auditor-in-Charge

Nancy Cipolla, Report Process Manager

Patricia Atkinson, Program Assistant
